<html>
<title> - PENDING NATIONAL PARKS LEGISLATION</title>
<body><pre>[Senate Hearing 114-338]
[From the U.S. Government Publishing Office]









                                                        S. Hrg. 114-338

                   PENDING NATIONAL PARKS LEGISLATION

=======================================================================

                                HEARING

                               BEFORE THE

                     SUBCOMMITTEE ON NATIONAL PARKS

                                 OF THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                                   on


                S. 145                S. 146
 
                S. 319                S. 329
 
                S. 403                S. 521
 
                S. 610                S. 782
 
                S. 873                S. 1483
 


                               __________

                             JUNE 10, 2015

                               __________



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                       Printed for the use of the
               Committee on Energy and Natural Resources

         Available via the World Wide Web: http://www.fdsys.gov
         
  
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

95-282                         WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001       
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       BERNARD SANDERS, Vermont
JEFF FLAKE, Arizona                  DEBBIE STABENOW, Michigan
STEVE DAINES, Montana                AL FRANKEN, Minnesota
BILL CASSIDY, Louisiana              JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               MARTIN HEINRICH, New Mexico
ROB PORTMAN, Ohio                    MAZIE K. HIRONO, Hawaii
JOHN HOEVEN, North Dakota            ANGUS S. KING, JR., Maine
LAMAR ALEXANDER, Tennessee           ELIZABETH WARREN, Massachusetts
SHELLEY MOORE CAPITO, West Virginia

                     Subcommittee on National Parks

                         BILL CASSIDY, Chairman
ROB PORTMAN                          MARTIN HEINRICH
JOHN BARRASSO                        RON WYDEN
LAMAR ALEXANDER                      BERNARD SANDERS
MIKE LEE                             DEBBIE STABENOW
JOHN HOEVEN                          ANGUS S. KING, JR.
SHELLEY MOORE CAPITO                 ELIZABETH WARREN

                    Karen K. Billups, Staff Director
                Patrick J. McCormick III, Chief Counsel
   Lucy Murfitt, Senior Counsel and Natural Resources Policy Director
           Angela Becker-Dippmann, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                David Brooks, Democratic General Counsel
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Cassidy, Hon. Bill, Chairman and a U.S. Senator from Louisiana...     1
Heinrich, Hon. Martin, Ranking Member, and a U.S. Senator from 
  New Mexico.....................................................     5
Alexander, Hon. Lamar, a U.S. Senator from Tennessee.............     6
Murphy, Hon. Christopher, a U.S. Senator, from Connecticut.......     7
Flake, Hon. Jeff, a U.S. Senator from Arizona....................     8

                               WITNESSES

Knox, Victor, Associate Director, Park Planning, Facilities and 
  Lands, National Park Service, U.S. Department of the Interior..    23

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

Abraham Lincoln Bicent Commission
    Letter for the Record........................................    64
Alexander, Hon. Lamar
    Opening Statement............................................     6
American Hotel & Lodging Association
    Letter for the Record........................................    10
American Rivers
    Letter for the Record........................................    87
American Whitewater
    Statement for the Record.....................................    88
Arizona Sportsmen for Wildlife Conservation
    Letter for the Record........................................    20
Baltimore Heritage
    Letter for the Record........................................    66
Baltimore National Heritage Area
    Letter for the Record........................................    67
Blumenthal, Hon. Richard
    Statement for the Record.....................................    90
Brnovich, Hon. Mark
    Letter for the Record........................................    12
Cardin, Hon. Benjamin
    Statement for the Record.....................................    60
Cassidy, Hon. Bill
    Opening Statement............................................     1
Colman, Wanda
    Letter for the Record........................................    92
Congressional Sportsmen's Foundation
    Letter for the Record........................................    16
Connecticut Department of Energy & Environmental Protection
    Letter for the Record........................................    93
East Granby Land Trust, Inc.
    Letter for the Record........................................    94
Farmington Valley Visitors Association
    Letter for the Record........................................    95
Flake, Hon. Jeff
    Opening Statement............................................     8
Frederick Douglass Family Foundation
    Letter for the Record........................................    68
Friends of the President Street Station, Inc.
    Letter for the Record........................................    69
Grand Canyon Airlines, Papillon/Grand Canyon Helicopters, 
  Maverick Helicopters
    Letter for the Record........................................    96
Granby Land Trust
    Letter for the Record........................................    98
Heinrich, Hon. Martin
    Opening Statement............................................     5
Klobuchar, Hon. Amy
    Statement for the Record.....................................    58
Knox, Victor
    Opening Statement............................................    23
    Written Testimony............................................    25
    Responses to Questions for the Record........................    80
Kulick, John
    Letter for the Record........................................    99
Lincoln Group Inc. of the District of Columbia
    Letter for the Record........................................   100
Maryland Department of Planning and Maryland Historical Trust
    Letter for the Record regarding S. 521.......................    70
    Letter for the Record regarding S. 610.......................    72
Maryland Historical Society
    Letter for the Record regarding S. 521.......................    73
    Letter for the Record regarding S. 610.......................    74
Murkowski, Hon. Lisa
    Statement for the Record.....................................     2
Murphy, Hon. Christopher
    Opening Statement............................................     7
National Association for the Advancement of Colored People-
  Washington Bureau
    Letter for the Record........................................   101
National Parks Conservation Association
    Letter for the Record........................................    75
North Country Trail Association
    Statement for the Record.....................................   103
Rawlings-Blake, Hon. Stephanie
    Letter for the Record........................................    76
Roaring Brook Nature Center
    Letter for the Record........................................   110
Safari Club International
    Letter for the Record........................................    18
Simanski, Hon. Bill
    Letter for the Record........................................   111
Simsbury Garden Club
    Letter for the Record........................................   112
Simsbury Land Trust
    Letter for the Record........................................   113
State of Arizona Game and Fish Department
    Letter for the Record........................................    14
Tariffville Village Association
    Letter for the Record........................................   114

----------
The text for each of the bills which were addressed in this hearing can 
be found on the committee's website at: http://www.energy.senate.gov/
public/index.cfm/hearings-and-business-meetings?ID=ADC24424-9343-4273-
BAC7-5C8752E38D11.

 
                   PENDING NATIONAL PARKS LEGISLATION

                              ----------                              


                        WEDNESDAY, JUNE 10, 2015

                                        U.S. Senate
                             Subcommittee on National Parks
                  Committee on Energy and Natural Resources
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:30 p.m. in 
Room SD-366, Dirksen Senate Office Building, Hon. Bill Cassidy, 
Chairman of the Subcommittee, presiding.

  OPENING STATEMENT OF HON. BILL CASSIDY, CHAIRMAN AND A U.S. 
                     SENATOR FROM LOUISIANA

    Senator Cassidy. This is our first legislative hearing in 
the National Parks Subcommittee this Congress and my first as 
Chair. I look forward to presiding over the important work of 
the Subcommittee and working with you, Senator Heinrich.
    The purpose of today's hearing is to receive testimony on 
ten bills pending before this Subcommittee. A few have been 
heard before.
    Two bills sponsored by Senator Jeff Flake were prompted by 
the 2013 government shut down, and both advanced on a 
bipartisan basis through the Full Committee. The first, S. 145, 
the National Parks Access Act, would refund money advanced by 
six states to open certain national parks during the shutdown. 
The other, S. 146, the Public Access to Public Lands Guarantee 
Act, would enable the public land management agencies to accept 
public or private funds to keep public lands open in the event 
of a future shutdown. We will hear more about these from 
Senator Flake.
    The other two bills from last Congress are S. 319 from our 
Committee Chair, Senator Murkowski, to change the name of Mount 
McKinley to Mount Denali in Denali National Park, and S. 329, 
Senator Murphy's bill to designate portions of the Farmington 
River and Salmon Brook in Connecticut as wild and scenic 
rivers.
    We will update the record on these four bills. The 
remaining six bills are new to the Subcommittee.
    S. 873 is another bill from Senator Murkowski, to name the 
existing wilderness inside Lake Clark National Park and 
Preserve in Alaska as the Jay S. Hammond Wilderness Area. 
Senator Murkowski cannot be here today, so we will include her 
written statement on both of her bills in the hearing record.
    [The information referred to follows:]
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    
    Senator Cassidy. We have Senators McCain and Flake's bill, 
S. 782, that will require the Department of the Interior to 
produce a bison management plan at Grand Canyon National Park 
within six months. This plan would require using skilled, 
authorized volunteer hunters to help cull the herd. This herd 
is growing unconstrained and is causing extensive resource 
damage inside the park.
    We have three authorizations for special resource studies. 
S. 521 was introduced by Senator Cardin to study President 
Street Station in Baltimore, the oldest surviving, big city 
railroad terminal with ties to the Civil War and the 
Underground Railroad. S. 610, another bill introduced by 
Senator Cardin, is a proposal to study P. S. 103, the Public 
Elementary School that Thurgood Marshall attended. And S. 1483, 
Senator Alexander's bill, is a proposal to study the James K. 
Polk home, the only existing home of our 11th President.
    Finally we have S. 403, introduced by Senator Klobuchar 
along with Senators Stabenow, Sanders, and Franken as co-
sponsors. This bill would reroute a portion of the North County 
National Scenic Trail and extend it to connect with the 
Appalachian Trail.
    We have one witness today, Mr. Victor Knox, Associate 
Director of the National Park Service for Park Planning, 
Facilities and Lands. I would like to thank Mr. Knox for being 
with us, but first let me turn to the Ranking Member, Senator 
Heinrich, for his remarks.

 STATEMENT OF HON. MARTIN HEINRICH, RANKING MEMBER AND A U.S. 
                    SENATOR FROM NEW MEXICO

    Senator Heinrich. Thank you, Mr. Chairman.
    Since this is the first hearing of the National Parks 
Subcommittee this Congress I would first start by 
congratulating you on becoming Chairman of the Subcommittee. I 
understand that this Subcommittee has historically had a very 
busy legislative work load, and since next year will mark the 
100th anniversary of the National Park Service, I believe the 
upcoming centennial will likely ensure even more attention to 
National Park-related legislation.
    This is also an important year for New Mexico's National 
Parks with the Valles Caldera National Preserve and the 
Manhattan Project National Historic Park established in 
December of last year.
    Overseeing the process of getting those and the other new 
units around the country organized and open to the public will 
be an essential task for this Subcommittee. I look forward to 
working with you on policies and programs that can help the 
Park Service not only address its current challenges but also 
enable it to better serve its mission of protecting our 
natural, cultural, and historic national treasures and 
providing for the enjoyment for future generations.
    Moving legislation through the Senate is never easy these 
days, and the key to dealing with bills and issues we are 
likely to consider will be to develop solutions that can get 
broad, bipartisan support that will be necessary for those to 
move through the Senate and ultimately get enacted into law.
    Turning to the bills on today's agenda my sense is that 
many of the bills are relatively non-controversial and several 
were previously considered by the Committee last Congress.
    I know the Administration has raised concerns with a couple 
of the bills so those may require some additional discussion, 
but I certainly look forward to working with you, Mr. Chairman, 
to try and get the bills on today's agenda ready for Full 
Committee consideration as soon as possible. And I see we have 
our colleague from Connecticut.
    Senator Cassidy. Are there any Senators who would like to 
make a short statement on their legislation today?
    Senator Alexander?

 STATEMENT OF HON. LAMAR ALEXANDER, U.S. SENATOR FROM TENNESSEE

    Senator Alexander. Well thanks, Senator Cassidy. I have two 
pieces, but let me mention one.
    My legislation would authorize the Park Service to take the 
next step to determine whether it ought to make the James K. 
Polk home in Columbia, Tennessee, a part of the National Park 
Service. Seventeen U.S. Presidents have homes that are operated 
by the National Park Service. This is the only home of 
President Polk, and while they are a dedicated group of 
individuals in Columbia which is a small town who support it, 
it is difficult for them to give it the kind of support it 
deserves.
    We talk a lot about science and math and the importance of 
it, but the worse score our high school seniors have in America 
is on United States History. I cannot think of a better way to 
encourage the study of United States History and what it means 
to be an American than to make sure that our Presidential homes 
are properly cared for.
    President Polk was listed on Arthur Schlesinger, Jr.'s poll 
of Historians 1996 as the ninth greatest President, ahead of 
Eisenhower, John Adams, Kennedy, Cleveland, Lyndon Johnson, and 
a number of others, so he served one term. He said he would do 
four things. He did all four and went home and died, and that 
was at a relatively young age. He presided over the annexation 
of Texas, fought in the Mexican War, expanded the United States 
to Oregon, and acquired California. That is a lot to do in four 
years, so I will be making the argument when the times comes 
that President Polk's home needs to be recognized because of 
his greatness and because of its usefulness as to helping us 
remind ourselves of what it means to be an American.
    Thank you for the time.
    Senator Cassidy. Senator Warren, do you care to make a 
short statement?
    Senator Warren. No, I am good. I am ready to get to our 
witness.
    Senator Cassidy. Okay. All member statements will be added 
to the hearing record.
    We will now turn to Senator Murphy, who has joined us for 
his remarks.
    Senator Murphy, welcome.

 STATEMENT OF HON. CHRISTOPHER MURPHY, U.S. SENATOR, STATE OF 
                          CONNECTICUT

    Senator Murphy. Thank you very much, Mr. Chairman, Senator 
Heinrich, other members of the Committee. Thank you for having 
me here today.
    Senator Alexander, I will just note that in college I wrote 
a 20-page research paper on why James K. Polk was the most 
underrated President. I will be happy, if I can figure out a 
way to get my Apple 2E computer to work again, to print that 
off for you for your efforts. [Laughter.]
    Thank you very much, Mr. Chairman. I am here to testify, as 
you mentioned, on a bill that this Committee has considered 
before. I thank the Committee and all the staff for its work on 
the Lower Farmington River and Salmon Brook Wild and Scenic 
River Act.
    The journey to obtain the designation began over a decade 
ago when local residents in the towns of Avon, Bloomfield, 
Burlington, Canton, East Granby, Farmington, Granby, Hartland, 
Simsbury, and Winsor, Connecticut came together to form a 
unique partnership to protect this river. It is my hope that 
with your help the amazing, community-driven work that has been 
done can be finally endorsed this year through a Federal 
designation for the Lower Farmington River and the Salmon 
Brook.
    There really is an amazing ecological, recreational and 
historic story to tell about this stretch of river. I just want 
to briefly mention a few of the highlights.
    Ecologically this is a really important stretch of river. 
For those of you who care about shellfish, and we care a lot 
about them in the Northeast, this is the only known river to 
support all 12 native New England, freshwater mussel species, 
including the only Federally-endangered freshwater mussel that 
occurs in New England.
    It also has some of the highest water quality in all of 
Connecticut, so it provides excellent fishing for Brown Trout, 
Brook Trout and Salmon. Many fishermen will tell you that cold 
water trout fisheries of the Salmon Brook provide some of the 
most outstanding opportunities for angling anywhere in the 
Northeast.
    Recreationally the Tariffville Gorge in Simsbury, which is 
part of this stretch of river as well as in East Granby, 
provides premier whitewater paddling and has been the location 
for world-class paddling competitions.
    It is also one of the very few rivers in the East where 
there are year round paddling opportunities. The Tariffville 
Whitewater Triple Crown Challenge just wrapped up a few weeks 
ago, and this event has attracted its competitors from all 
around the world including U.S. Olympic team members.
    Historically, this river is also pretty astounding as well. 
Over 100 prehistoric archeological sites have been discovered 
to date in the Lower Farmington River and Salmon Brook 
corridors. It has been continuously occupied, and this is 
really remarkable. It has been continuously occupied by human 
settlement for over 11,000 years, and most recently of those 
11,000 years, in the 1800's, it was one of the most active 
sites of the Underground Railroad. Farmington was referred to 
as the Grand Central Station of the Railroad because of its 
robust abolitionist activities.
    This bill began back in the mid-2000's when my predecessor 
in the House of Representatives, Congresswoman Nancy Johnson, 
helped enact legislation that initiated the study on which this 
present bill is based. The study was completed in 2011, and it 
confirmed the suitability of designating the Lower Farmington 
River and Salmon Brook as wild and scenic.
    This is also the product of these ten towns coming 
together. There are Republican and Democratic local 
administrations in all of these towns. They all support it. It 
does not represent the Federal Government stepping in to manage 
the river, rather the bill serves to complement the independent 
work of a group of Connecticut communities that are simply 
looking for a committed partner at the Federal level.
    To my mind this bill really embodies what Congress should 
be doing. We are listening to the needs of local residents, and 
we are supporting their work. It is a model that has worked 
elsewhere in the state. In fact, the upper 14-mile portion of 
the Farmington River was designated as wild and scenic in 1994, 
so we already have Federal designation on the upper portion of 
this river. This is seeking designation for the lower portion 
as well.
    Finally, since last year's hearing on the bill, I have 
worked very closely with the Park Service and one specific dam 
operator along the river to craft an amendment that ensures the 
interest of all stakeholders, the towns and the companies who 
own property along the river so that they are all taken into 
account. So we are here today with full support from all of the 
stakeholders for this underlying bill and the amendments.
    During last year's hearing on the legislation the National 
Park Service spoke positively about the bill but stopped short 
of endorsing it because the Park Service study report had not 
been completed. The study is now complete, and I hope that you 
will hear today endorsement for this bill.
    Again, I thank the Committee for all of its work on this 
bill. This is the second time before you. I hope that this is a 
fairly non-controversial measure.
    As I said, we have really wonderful, broad, bipartisan 
support for this bill. All of the stakeholders are behind it 
given the fact that the upper portion of the river has already 
gotten this designation. Hopefully it makes this bill even 
easier.
    Thank you for your time.
    Senator Cassidy. Thank you, Senator Murphy, and thanks for 
all of your hard work showing how it should be done.
    We have been joined by Senator Flake, who is a member of 
the Full Committee. Senator Flake, would you like to make a 
comment on your bills?

    STATEMENT OF HON. JEFF FLAKE, U.S. SENATOR FROM ARIZONA

    Senator Flake. Yes, just a couple of moments, thank you, 
Mr. Chairman, for allowing me to do this.
    There are three pieces of legislation on today's agenda 
that I will very briefly address.
    S. 145, the National Park Access Act. I want to thank the 
Ranking Member, Senator Heinrich, for co-sponsoring that. It is 
sometimes called the reimbursement bill. It just requires that 
the Park Service reimburse the state who fronted the money when 
there was a shut down. The Federal Government got a windfall 
that was never returned to the states. This passed by voice 
vote last Congress. It should be non-controversial. I hope that 
we can get that done.
    The second one is the National Park Access and Public Land 
Guarantee Act. This would simply require the Secretary of 
Interior or the Federal agencies to enter into agreements with 
State agencies or governments if there is another shut down. We 
all hope there is not another shut down, but if there is one, 
we do not want the states to pay the price. The last time there 
was one it took the Federal agencies an undue amount of time to 
actually agree to enter into an agreement and allow these parks 
to remain open. This would simply require them to move more 
swiftly to do that.
    The third one is the Grand Canyon Bison Management Act. 
This, as pointed out before, is a big problem in Grand Canyon 
Park. You have these cattalo or beefalo. These hybrid or cross-
bred buffalo that migrated into the park are really wreaking 
havoc, and we have asked the Park Service to come up with a 
plan to deal with them. They said more than a year ago they 
would come up with a plan, but they have not finished it yet. 
If they do it will be by next year, and then it will likely be 
very slowly implemented. This bill would simply allow them to 
enter into agreements with licensed, skilled volunteers who 
would assist in lethal culling. This is similar to legislation 
that was introduced by former Senator Mark Udall with regard to 
elk herds in other National Parks. It can be done more quickly 
and certainly help with the situation. The environmental 
degradation is really bad, and we need to move ahead with that. 
This is a bill that has been introduced by Senator McCain and 
myself. Let me just ask unanimous consent to enter some letters 
from outside groups to these bills in support for S. 145, S. 
146, letters from the American Hotel and Lodging Association 
supporting it, Attorney General Mark Brnovich, also the Arizona 
Game and Fish Commission, the Congressional Sportsmen's 
Foundation, Safari Club International, and the Arizona 
Sportsmen for Wildlife Conservation is supporting S. 782.
    [The information referred to follows:]
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
    
    
    Senator Flake. Thank you, Mr. Chairman.
    Senator Cassidy. It is time to hear from our witness. Mr. 
Knox is the Associate Director of the National Park Service. At 
the end of his testimony we will begin questioning. Your full 
written testimony will be made part of the hearing record. 
Please keep your statement to five minutes so that we will have 
time for questions.
    Mr. Knox, please proceed.

 STATEMENT OF VICTOR KNOX, ASSOCIATE DIRECTOR, PARK PLANNING, 
FACILITIES AND LANDS, NATIONAL PARK SERVICE, U.S. DEPARTMENT OF 
                          THE INTERIOR

    Mr. Knox. Mr. Chairman and Senator Heinrich, thank you for 
the opportunity to appear before this Subcommittee.
    Senator Heinrich. Mr. Knox, I just want to point out to our 
colleague that if he does need to go then now would be an 
appropriate time. You do not need to sit through the entire 
hearing. Thank you.
    Thank you, Mr. Knox.
    Senator Alexander. If I may, Mr. Chairman, I want to thank 
Senator Murphy for his bipartisan gesture which I assume 
amounts to a co-sponsor of my bill about President Polk. 
[Laughter.]
    Mr. Knox. Mr. Chairman, thank you for the opportunity to 
appear before this Subcommittee to present the Department of 
Interior's views on the ten bills on today's agenda. I would 
like to submit our full statement on each of these bills for 
the record and summarize in my oral statement the Department's 
views.
    S. 145 requires the National Park Service to reimburse each 
state that provided funds to open and temporarily operate units 
of the National Park system in October 2013 when there was a 
lapse in appropriations for most Federal Government activities. 
The National Park Service does not have the authority to 
reimburse the states for the approximately $2 million in 
donated funds that were expended. S. 145 would provide that 
authority.
    S. 146 would require the Secretaries of Interior and 
Agriculture to enter into agreements with states or their 
political subdivisions to accept funds to open National Park 
units, National Wildlife Refuges, Bureau of Land Management 
public lands and National Forests during a government shut down 
and provide for reimbursement to the states. The Department 
strongly opposes Senate 146. We disagree with the idea of 
enacting laws to lessen the impact of a future government shut 
down for a few select governmental activities rather than 
protecting all such activities by avoiding a future lapse in 
appropriations.
    S. 319 would designate Mount McKinley in the State of 
Alaska as Mount Denali. The National Park Service appreciates 
the long history and public interest for both the name Mount 
McKinley and the traditional Athabaskan name, Denali. The 
Department respects the choice made by this legislation and 
does not object to S. 319.
    S. 329 would designate 35 miles of the Farmington River and 
the entire 26 miles of its major tributary, Salmon Brook, as 
part of the wild and scenic rivers system. The Department 
supports enactment of S. 329 with an amendment.
    S. 403 would revise the route of the North Country National 
Scenic Trail in Northeastern Minnesota and extend the trail 
beyond its current terminus in New York eastward into Vermont 
increasing the total length of the trail for approximately 
4,000 miles to approximately 4,600 miles. The Department 
supports enactment of S. 403.
    S. 521 and S. 610 would authorize special resource studies 
of two sites in Baltimore--President Street Station, which is a 
historic train station associated with the 1861 Baltimore 
riots, and Public School 103 and other resources that relate to 
the early life of Thurgood Marshall. The Department supports 
enactment of these two bills and recommends technical 
amendments to S. 521.
    S. 782 would direct the Secretary of Interior to publish a 
Bison Management Plan for Grand Canyon National Park within 180 
days of enactment which must include culling of bison by 
skilled, public volunteers and allow public volunteers to 
remove a full bison harvested from the park. The Department 
opposes S. 782 because it would disrupt an ongoing planning 
effort for managing bison at Grand Canyon National Park. And 
further, it may cause confusion about the National Park 
Service's authorities to manage wildlife populations through a 
variety of means including the use of skilled volunteers.
    S. 873 would designate the approximately 2.6 million acres 
of national wilderness preservation system located within Lake 
Clark National Park and Preserve as the J. S. Hammond 
Wilderness Area. The Department supports enactment of S. 873.
    S. 1483 would authorize a special resource study of the 
James Knox Polk home in Columbia, Tennessee. The Department 
supports enactment of this legislation with amendments.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Knox follows:]
    
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                
    Senator Cassidy. Thank you, Mr. Knox.
    Now we will begin questioning. Senator Heinrich and I will 
defer our questions until after others go. Senator Alexander 
will go first and then Senator Warren.
    Senator Alexander. Well thanks, Senator Cassidy. That is 
very generous of you and Senator Heinrich.
    I am glad to see you and Senator Warren in different seats 
than I usually see you in our Committee.
    Mr. Knox, I am delighted that the Department supports 
legislation to take the next step in making President Polk's 
home part of the National Park Service.
    I mentioned earlier how important President Polk was in our 
history and how interesting he is. He kept a diary every night 
at the White House, and this was in the 1840's or so. I have 
read it all the way through. He must have written for an hour, 
an hour and a half at night. It is a fascinating thing, I mean, 
as I mentioned to you earlier, it would say 9 p.m., Senator 
Houston (that would be Sam Houston) showed up for an interview 
and stayed two and a half hours with some other Senator talking 
to the President. Then I guess he wrote this all down later 
after that by candlelight.
    He had two secretaries. That was his whole staff. He would 
spend the morning interviewing people who wanted jobs. If there 
was a treaty he had to read it, and if there was a message to 
the Senate, he had to write it.
    He spent four years, and as I said, he had four major 
objectives and he accomplished them all basically expanding the 
United States all the way to Texas, Oregon, and California.
    But one other thing he did was this. He signed the bill 
that created the Department of Interior, the agency that 
includes the National Park system. Now my question is don't you 
think it would be appropriate for the Presidential home of the 
President who created the Department of Interior, the home of 
the National Park Service, to be managed by the National Park 
Service?
    Mr. Knox. Senator, President Polk was a fascinating man, 
and it's really interesting to think about that time in our 
nation's history and what the job of the President was. I mean, 
as compared to now. So it's fascinating to hear you talk about 
that.
    We definitely support moving forward with this study which 
is really the next step in potential park designation, and we 
think that's the right thing to do to complete the study and 
make a clear recommendation to this Committee and to the 
Congress on whether it should be designated a unit of the 
National Park system.
    Thank you.
    Senator Alexander. Thank you. How long will it take to 
complete a special resource study of this sort?
    Mr. Knox. These studies, I think, our average length to 
complete them is about three years.
    Senator Alexander. About three years?
    Mr. Knox. Yes.
    Senator Alexander. Anything we can do to help make it 
easier for you to get that done more rapidly?
    Mr. Knox. Well as is in our full testimony, I don't know if 
this makes it easier, but as is in our full testimony we have 
about 33, a backlog of about 33 study bills that the Congress 
has passed that we're working on or beginning to work on. And 
we definitely want to get those done first and then begin 
working on any new bills.
    Senator Alexander. Well, I would hope that you would give 
as much priority as you can to this home because, as I 
mentioned, according to Arthur Schlesinger survey of 
historians, Polk was ranked ninth among the presidents, among 
the near greats.
    The other thing to consider is that if the Park Service 
were to enter into this kind of recommendation or recommend 
that the Government do it, there is a dedicated group of 
citizens in Columbia who support the home. They are not able to 
support it in the way Monticello or the Hermitage are, but they 
support it. With a partnership between the Park Service and 
this group of volunteers, I think, that the home, this home 
south of Nashville, would be a fascinating place and an 
educational source to help children and adults remember that 
important part of American history.
    So I thank you for coming, and I appreciate the 
Department's work to take the first step. This would be the 
second step, and I hope you will decide to recommend that 
President Polk be remembered in this way.
    Thank you, Mr. Chairman.
    Senator Cassidy. Senator Alexander, thank you.
    How many presidents hail from Tennessee?
    Senator Alexander. Well we claim three, Jackson, Polk and 
Andrew Johnson.
    Senator Cassidy. Okay.
    Senator Alexander. Others have tried. [Laughter.]
    Senator Cassidy. Senator Warren?
    Senator Warren. Thank you, Mr. Chairman. I want to add my 
congratulations for your ascending to the Chairmanship of the 
Subcommittee, and I am looking forward to working with you.
    Mr. Knox, I am really glad that you are here today, because 
I am a big believer in the work that your agency does.
    I know that the big national parks out West get most of the 
attention but my husband, Bruce, and I are avid hikers and we 
know how lucky we are to be able to explore the many areas 
within Massachusetts that your agency supports. Bruce and I 
just walked Cape Cod National Seashore on Saturday, and we live 
within walking distance of Longfellow House and General 
Washington's headquarters which are also managed by the Park 
Service.
    Massachusetts has some great national parks, and today I 
came here because I wanted to talk to you about the Taunton 
River. After years of hard work by local Massachusetts' 
communities and by Congressman Barney Frank and Senator Ted 
Kennedy, in 2009 the Taunton River was named a wild and scenic 
river. Now that is a term of art, not just descriptive, and 
this wild and scenic designation helps preserve our rich 
colonial history. It protects a uniquely diverse ecosystem 
throughout its entire 40 miles.
    The National Park Service describes the river as, ``Perhaps 
the most diverse and intact coastal ravine ecosystem in 
Southern New England and the largest freshwater contributor to 
the Narragansett Bay estuary in Rhode Island.'' In other words, 
it is very important to us in Massachusetts. It is very 
important in the region, and we think that makes it important 
to the country.
    Unfortunately, as Congressman Joe Kennedy recently brought 
to the National Park Service's attention, the average wild and 
scenic river managed by the Park Service received four times as 
much funding as the Taunton River. As you know, Federal support 
for wild and scenic rivers is critical to leverage other 
supports of funding that we work on. So I am concerned about 
the impact of these unfair funding levels on the Taunton River.
    Mr. Knox, I know of no reason that the Taunton River would 
receive such an inequitable level of Federal funding. I just 
want to ask you if you would commit to working with me to 
ensure that the Taunton River receives adequate support in the 
future.
    Mr. Knox. Senator Warren, I'm aware that in the President's 
budget request for FY'16 that's before the Congress there is 
some differences in the funding levels for the wild and scenic 
rivers. That is now with the Congress, and certainly Congress 
gets to decide what to do with the President's proposal.
    I am not aware of the reasons for those differences, and so 
I certainly could respond back to you with information on 
that.We certainly would look forward to working with you on the 
President's FY'17 proposal to see if that could be rectified.
    Senator Warren. Good. As I say, look, I am a supporter of 
what you do. I want to see us do adequate funding for the wild 
and scenic rivers for the other parts of the work of the Park 
Service, but I also want to make sure that the money that is 
allocated to wild and scenic rivers is distributed equitably.
    I know that in a case like this we are talking about very 
modest amounts of money, but it would make a big difference in 
communities like Fall River and Somerset and Taunton and others 
throughout the region.
    So I truly appreciate the great work that you and your 
agency have done in Massachusetts and across the country. I 
look forward to working with you to make sure that the natural 
beauty of the Taunton River remains protected for generations 
to come. I hope that we can work on that.
    Mr. Knox. Great.
    Senator Warren. Thank you.
    Thank you, Mr. Chairman.
    Senator Cassidy. Thank you, Senator Warren.
    Senator Daines?
    Senator Daines. Thank you, Mr. Chairman.
    Mr. Knox, in my home state of Montana there is a drainage 
in the Beartooth Mountains as part of the Absaroka Beartooth 
Wilderness. In fact I spent a lot of days growing up 
backpacking all over that great part of my state. That 
drainage, called the East Rosebud, is especially worthy of a 
wild and scenic designation. In fact, protection of the East 
Rosebud Creek is unanimously supported by landowners living 
adjacent to the designation and up through the drainage. It is 
really hard to find a more unanimously supported protection 
bill in Montana.
    In the House I introduced a bill to protect this drainage 
that reflects similar concepts as reflected in Senator Murphy's 
wild and scenic designation of the Farmington River, like 
protecting private property and other activities. I plan to 
reintroduce this bill in the Senate along with Senator Tester 
and then Representative Zinke in the House will be doing the 
same.
    Mr. Knox, I am interested to hear your thoughts on the 
importance of partnering with states and local governments like 
the cooperative agreements authorized in the Murphy bill. How 
do these cooperative agreements help to effectively manage the 
river segments protected under the act?
    Mr. Knox. So Senator, the cooperative agreements similar 
to, for the Farmington and Salmon Brook that have been put in 
place really reflect the views of the communities along the 
river. And as you can imagine along Farmington and the Salmon 
Brook there are a number of communities.
    Senator Murphy talked about ten different communities that 
are part of that partnership, and it reflects their views on 
the management of the river while protecting its values for 
recreation, you know, the scenic values of the river and 
preserving those natural resources.
    So it's really the Federal Government helping those local 
communities protect what's important to them.
    Senator Daines. I was intrigued in looking a little more 
into that proposed designation, the protections of the 
operation of that Rainbow Dam that is referenced. Where is the 
Rainbow Dam? I am not familiar with that area. I could tell you 
about the East Rosebud in Montana, I backpacked all over that 
part of the country, but I do not know about Senator Murphy's 
area. Where is the Rainbow Dam located in relation to the river 
segments that are protected under the act?
    Mr. Knox. So, Senator, it's along the lower Farmington 
River, and it's below where the Salmon Brook comes into the 
Lower Farmington River so that--and it's I don't know how many 
miles, probably ten miles or so, upstream of the Connecticut 
River.
    Senator Daines. And would it be part of the wild and scenic 
designation? Is it in that?
    Mr. Knox. It is not. It's excluded from the designation.
    Senator Daines. Okay, but how far away is that from where 
the wild and scenic designation is?
    Mr. Knox. Well, there's an exclusion area that's maybe five 
miles, four or five miles long.
    Senator Daines. Okay, what protects that area where the dam 
is located?
    Mr. Knox. And it's protected--correct. And then the wild 
and scenic river extends on either side of the exclusion area.
    Senator Daines. Okay, great, good. I yield back my time.
    Senator Cassidy. Thank you, Senator Daines.
    Senator Heinrich.
    Senator Heinrich. Senator Daines, is the East Rosebud, is 
that Forest Service or is that Park Service?
    Senator Daines. The Forest Service.
    Senator Heinrich. I look forward to working with you on 
that.
    Mr. Knox, I wanted to ask you a related question that 
Senator Daines brought up regarding S. 329. In the Farmington 
wild and scenic river designation you have suggested that the 
bill should include language making clear that any future 
changes to the operation of that Rainbow Dam include protection 
for the wild and scenic river's values.
    I wanted to ask do you agree that as it is presently 
configured that the operation of the dam and the reservoir is 
compatible with this designation? And just to make sure I 
understand your perspective, I wanted to ask is the concern 
that, if the dam were to be expanded at some point or operation 
changed in a way that reduced in stream flows that that would 
somehow, that that would impact adversely the wild and scenic 
river?
    Mr. Knox. Senator, I might have to get back to you on some 
of the specifics of your question. But in general the answer is 
your understanding is correct that the current operations are 
compatible with the wild and scenic values and that future 
changes could somehow affect the flow regimes or whatever in 
the river that would change those values and degrade those 
values.
    Senator Heinrich. Okay, thank you.
    On S. 1483, the James Polk home study, my understanding is 
that the Polk home is currently owned by the State of Tennessee 
and is presently administered as a historic site. So that its 
use, if included in the park system, would essentially be 
unchanged. Doesn't your standard study criteria under the 
General Authorities Act allow you to address issues that would 
be relevant to the potential park designation without requiring 
you to spend time analyzing additional issues not directly 
related to suitability? Because there is a whole list of 
things.
    Mr. Knox. I'm not sure I completely understand the 
question, but we have four criteria. One is national 
significance. The second is----
    Senator Heinrich. I think as the actual bill is constructed 
there are a number of things required of you to analyze that 
are not directly related to suitability or feasibility or to 
the four standard criteria that the Park Service looks at.
    Mr. Knox. That's correct. The bill as written requires us 
to look at its impact on energy production and transmission. It 
requires us to look at would it impact the authority of the 
state or local governments to manage local properties.
    Senator Heinrich. I am just saying in a case like this 
where clearly the use is not really changing from, so much as 
the landlord, are you still required to do that kind of 
duplicative analysis?
    Mr. Knox. Well, our position is that additional analysis is 
unnecessary to study the significance and appropriateness of 
this home being added as a unit of the National Park system and 
that it could be quite complex and require, you know, Senator 
Alexander was concerned about the length of time it would take. 
It could take much more time and more money to complete that 
additional analysis.
    Senator Heinrich. Great.
    I am going to leave you with one more question then I will 
wait until the second round to get into a little bit more 
detail. Regarding S. 782, the Grand Canyon Bison Management 
bill, I just wanted to make sure we are all on the same page. 
Does the Park Service agree that the bison herd is damaging 
park resources in Grand Canyon National Park?
    Mr. Knox. Yes.
    Senator Heinrich. Great. And that it is too large and needs 
to be reduced?
    Mr. Knox. Yes.
    Senator Heinrich. Okay.
    I will get to my second round and go into a little bit more 
detail on that.
    Mr. Knox. Thank you.
    Senator Heinrich. Thanks.
    Senator Cassidy. Senator Flake?
    Senator Flake. Thank you, Mr. Chairman. And Mr. Heinrich, 
thank you for letting me barge in on this Subcommittee.
    Let me just followup with regard to the Grand Canyon Bison 
Management Act. You mentioned in your testimony that the 
objection to the bill is that the 180-day timeframe would 
complicate public engagement efforts that the National Park 
Service is going through. Is that correct?
    Mr. Knox. Yes, Senator.
    We're underway with the plan. We hope to--we plan to 
release the Bison Management Plan for public review early in 
2016. Passage of this bill would, you know, change how we're 
working on the plan significantly, and we think we're moving 
along and can bring that forward and get public comment early 
next year.
    Senator Flake. There were public meetings held in May 2014, 
I believe. Has there been any public engagement since that 
time?
    Mr. Knox. I'm not sure of the details of public engagement 
since then. We did public scoping back in 2014 which is 
getting, you know, kind of general ideas on the issue from the 
public and took that to begin developing the alternatives for 
the plan.
    Senator Flake. Alright.
    It was a little unclear. I guess you are saying early in 
2016 the plan will be ready because it said winter of 2016. We 
do not know if that means late 2015 or winter, a year later, 
December 2016 or January of 2016.
    You are saying early 2016 which would mean January?
    Mr. Knox. Well I'm not sure January, but sometime in the 
winter months of early 2016.
    Senator Flake. One thing brought up as well is perhaps the 
cost to this. I know we do use sharp shooters to cull white-
tailed deer in parks in the U.S., in the Eastern U.S., and we 
cull elk on Channel Island. Do you know how much the Park 
Service pays for that kind of arrangement?
    Mr. Knox. No, Senator, I don't but I could get you that 
information.
    Senator Flake. Okay. Alright. Well that would be nice in 
terms of comparative cost to see if that is really a concern.
    Senator Flake. You explain in your testimony that in both 
the Rocky Mountain National Park and the Theodore Roosevelt 
National Park the Park Service uses skilled volunteers to cull 
the elk population there. What type of NEPA instrument was used 
in each of these cases? How long did it take for the Park 
Service to develop these plans?
    Mr. Knox. My understanding is they're both EIS documents. I 
don't know the length of time.
    Senator Flake. Alright.
    Mr. Knox. I'll have to get back to you on that.
    Senator Flake. Alright.
    Our concern is, this is a problem now. It is going to be a 
growing problem, and the longer we go here when it takes two 
and a half years or so total to develop a plan and all we have 
is well, maybe, it will be done or we think it will be done 
early 2016.
    In Yellowstone Park, I think, there are issues with bison 
there. This is one of the posters and pamphlets you are giving 
out to people saying ``Keep your Distance'' because the issues 
there do not approach wildlife including bison here.
    Now I do not know if the beefalo or the hybrid version is 
any more docile, but we might be approaching issues here if we 
do not hurry up. I would just encourage us to move ahead in 
this area more quickly.
    I recognize the opposition of the bill and the timeframe. 
We would not feel a need to put a timeframe if we were moving 
ahead more expeditiously, and it just seems to be taking far 
too much time here.
    With regard to one of the other bills very quickly, the 
National Park Access Act. You said that you do not want to 
shield some parts of the Federal Government from the effects of 
a shut down. We do not want to shut down. Many of us were not 
in favor of any kind of shut down. But in case it does happen, 
if a state or local government is willing to fund these 
activities that the Park Service is undertaking, I would hope 
that we would work with them quickly. That is all we are trying 
to do here. While the Interior Department waited a week or two 
that cost Arizona a significant amount of money. Had the 
decision been made more quickly to work with the state and to 
move ahead it would have been better for the parks and 
certainly better for the population in Arizona. So that is why 
we feel the need to offer this legislation.
    Thank you very much.
    Senator Cassidy. Thank you.
    Senator Cantwell?
    Senator Cantwell. Thank you, Mr. Chairman.
    Mr. Knox, I know we do not have any bills on the agenda 
regarding this, but I know you are heading up the National Park 
Service team on the implementation of the Manhattan Project. So 
I just wanted to ask about that. If you could tell me if you 
have made any decisions about siting the park headquarters and 
whether Hanford is still under consideration and also about, 
you know, just decisions--well, answer the first question and I 
will get to the second question.
    Mr. Knox. Well Senator, first of all, I want to thank you 
for championing the bill that created the Manhattan Project 
National Historical Park. I have had the great pleasure of 
visiting with the National Park Service team, the communities 
of Oak Ridge, Los Alamos and Hanford and saw the huge public 
support, local support, for that park in each of those 
communities.
    And each of those resources, each of those areas has a 
different part of the story to tell, and each is equally 
important. We have made no decision at this point on location 
of a headquarters. And we're probably, you know, a ways away 
from making those organizational decisions.
    Senator Cantwell. Okay.
    Mr. Knox. But I would like to commit to you, Senator, that 
we would look at the relatively equal staffing levels, equal 
importance in each of the communities because each have a 
clearly important part of the story.
    Senator Cantwell. There are many sites within the Manhattan 
Project that help us tell the story, like the high school 
building and the construction camp and the White Bluffs, so 
hopefully you are taking all that into consideration in making 
decisions about what should be included?
    Mr. Knox. Yes, Senator.
    The legislation that was passed requires Hanford B reactor 
to be part of this new national historical park and then 
there's a number of properties at all the other, all three 
sites, that are eligible to be within the boundary, both within 
the boundary of the park.
    And we're taking--working with the Department of Energy for 
all the DOE-administered areas to take a hard look at which of 
those sites could, should be part of the park. And they would 
be included in the agreement that we are working with, with the 
Department of Energy and that we hope to have out for public 
comment in the next month or so.
    Senator Cantwell. Well, you can see from visiting the site 
that transportation through the DOE's site and these facilities 
is an issue. We just have to figure this out and get it right 
so that people can have access because obviously it is a 
beautiful area, and there is a story to be told.
    Mr. Knox. Absolutely.
    Senator Cantwell. Thank you.
    Thank you, Mr. Chairman.
    Senator Cassidy. Senator King?
    Senator King. Thank you, Mr. Chair.
    Several points. Last year we had an unfortunate experience 
at Acadia National Park in Maine where the concessionaire who 
had had the concession there for something like 80 years, a 
local company, lost out in the bidding process. It is okay to 
lose in a bidding process, but we found, to our astonishment 
afterwards, and I discussed this with several of your people, 
that there was no consideration given whatsoever to prior 
performance or quality of performance.
    It would be like going into a car dealer and the only 
question is price, not quality or how well it drove or what its 
record of performance was. I am astonished that the process got 
that far without somebody saying well, how people did in the 
past should be relevant in considering their bid because what 
you end up with is a large national company that is very good 
at bidding and a small, local company that is very good at 
performing. Performance should be a factor.
    I would urge you, if this is something that needs a 
legislative fix, based upon the statute in 1998, let us know. 
Otherwise I hope you will modify your procedures in such a way 
as to be able to do the common sense thing which is look at 
both value, performance and price of when you are analyzing 
these because this was a big disruption in Maine. Lots of local 
jobs went away, and it was a real problem and frankly it was a 
black eye for the Park Service.
    Do you know anything about this process?
    Mr. Knox. Senator, I don't. I do know something about the 
concession process, but I don't know specifics on Acadia.
    Senator King. I do not expect you to speak specifically, 
but I am talking about the concession process and how the 
applicants are judged.
    Mr. Knox. Yes, it should be based on their financial 
capability, their quality of their--experience providing 
quality operations and the proposal that they put back to the 
National Park Service in terms of franchise fee returned to the 
National Park Service. And other considerations depending on 
each prospectus has different issues. Sometimes it's 
environmental concerns that they provide additional protection 
of the environment. So there's a number of criteria that each 
operation is judged based on.
    Senator King. I just hope you will consider this issue 
because we had a specific discussion. As I recall it was in 
this room with your people, and they said well, no, past 
performance of the current incumbent is not a factor in the 
scoring. I hope you would correct that. I will be following up. 
Actually you will be getting a letter from me, or your office 
will, very shortly.
    The second question is about revenues and fees. I proudly 
carry my senior pass which gets me into any National Park in 
the country for the rest of my life. It can be purchased at the 
age of 62, and the total cost for a lifetime pass to every 
National Park is $10. Now I am all for discounts for seniors 
and I like getting this for $10, but it strikes me that that is 
not fair to the taxpayers of the country who have to make up 
the difference. I do not know whether it should be $40 or $50 
or some other number, but $10 struck me as a very low fee for a 
lifetime pass for somebody that hopes to live another 30 years 
and really loves going to the National Parks. I just commend 
that to you for your consideration.
    Another issue along those lines that we have observed in 
Maine is where and how the fees are collected. I think that is 
worth a review because my sense is we are leaving a lot of 
money on the table, particularly in parks that have multiple 
entrances. We ought to be in a place where you can pay online, 
where you have an app that you can wave it as you go in that 
would expedite the lines. It would be more sure of getting the 
accurate payment and those kinds of things.
    I talked to Secretary Jewell about this. When you go to the 
app store for National Parks, you get either a commercial app 
or Australia National Parks. I think we ought to have a good 
app that you could use around the country, put a credit card 
number on it. It would pay your fee wherever you went, and we 
would again be collecting more revenues that would offset the 
shortfall for maintenance and other purposes.
    So those are two suggestions. It may not be apparent, but I 
am a huge supporter of the National Parks. I think it is one of 
the great, you know, Ken Burns said America's best idea, 
wonderful idea. My wife and I were at Yosemite a few months 
ago, so I want to do all I can to help you. But I think that 
there has to be a realization that the budget situation here is 
not likely to improve anytime soon, and therefore, you have to 
be thinking of creative ways to generate your own revenues 
without making it prohibitive and without making it so people 
cannot enjoy the parks but to be sure that people who want to 
and are willing to pay have a way to do so.
    So, thank you.
    Thank you, Mr. Chairman.
    Senator Cassidy. Thank you, Senator King.
    I will ask my questions now.
    Mr. Knox, Senate bills S. 521, S. 610, and S. 1483 
authorize the National Park Service to conduct special resource 
studies, one purpose to determine the suitability, feasibility 
of designating study areas as a unit of the National Park 
Service. Part of that analysis is whether the park can be 
managed at a reasonable cost.
    Can you tell us what goes into making the determination to 
recommend a new park? For example, do you consider cost of 
managing the units you already have in the system, existing 
maintenance backlog and if you divert more resources to a new 
park can you maintain current responsibilities?
    Mr. Knox. Yes, Senator, you're speaking about the 
feasibility criteria, one of four criteria for studying a new 
unit.
    Senator Cassidy. Correct.
    Mr. Knox. What we generally look at there is--are the 
resources within, that are within that proposed area? Are they 
co-located where they could be reasonably managed 
operationally? What would be the cost if there's land 
acquisition involved, what would be the cost of acquiring land 
for that new unit? We look at----
    Senator Cassidy. Is there a metric involved? What is 
considered a reasonable cost?
    Mr. Knox. We basically compare the proposed unit to similar 
units that are within the National Park System and----
    Senator Cassidy. Now this presupposes that you will be 
getting more money every year because presumably your budget is 
for the parks you currently manage. So it presupposes some 
increase unless you can co-locate, it is so co-located, that 
you are at marginal cost or minimal. Is that a fair statement?
    Mr. Knox. That is correct.
    Senator Cassidy. Has your budget been increasing? I say 
this because I am all for expanding our Park Service, but we 
have to live within our means, as Senator King pointed out. So 
in your calculations do you say, okay, it is a reasonable cost 
plus we expect our budget to grow, but if our budget does not 
grow despite being a reasonable cost, it does not happen?
    Mr. Knox. Well we see our job as recommending whether it's 
an appropriate unit for the National Park System based on the 
historical and natural resource significance of those resources 
that are within the unit. It wouldn't be extraordinarily 
expensive as compared to existing units or difficult to manage 
compared to existing units of the National Park System. Is 
there someone else that could do or is already doing or----
    Senator Cassidy. Yes, I get that.
    Mr. Knox. Or could do a good job?
    Senator Cassidy. But you have to project your budget for 
the coming year. When you project your budget for the coming 
year what if you know your budget is going to be tight, again 
as Senator King pointed out. The budgets will be tight. Would 
something which would otherwise be recommended to be considered 
a national park not be recommended because of the overall 
budget process? I am just curious.
    Mr. Knox. Well, we make the recommendation based on is it 
an appropriate unit of the National Park System and Congress 
gets to make the decision on designation.
    Senator Cassidy. I see.
    So, I guess what I am trying to get, as an authorizer and 
appropriator, if there is a portfolio you have. You can expand 
that portfolio ad infinitum if there is infinite resources. 
But, are you prohibited from viewing what our resources or you 
say, this would be appropriate. Would we have resources? I do 
not quite understand this process.
    Mr. Knox. We look at the decision on appropriate levels of 
funding for the National Park Service. That's Congress' 
decision.
    Senator Cassidy. I guess----
    Mr. Knox. And so I guess and also the decision whether to 
add units to the National Park System.
    Senator Cassidy. But are you agnostic as to what Congress 
will do and you just make the decision and if Congress wants to 
appropriate the money they do? But you may recommend to make it 
a park, but Congress does not appropriate the extra money. What 
happens then? Do you still make it a park or do you follow what 
I am saying or do you say no, Congress did not give us the 
money so we cannot designate it a park this time around?
    Mr. Knox. Well the Congress makes the designation. And if 
there's no funding, if there's no appropriation for that unit, 
we manage it on a shoestring until there are appropriations, 
generally.
    Senator Cassidy. Gotcha. How often does a study come back 
that does not recommend a study area become a unit of the Park 
system?
    Mr. Knox. We have a number of studies where we've 
recommended that the unit not be included or the property not 
be included.
    Senator Cassidy. Do you have a sense of that percent of 
studies?
    Mr. Knox. No. I can get you that number.
    Senator Cassidy. That would be great.
    Senator Cassidy. Let's go to the Grand Canyon Bison bill. I 
am not from the Grand Canyon states, but I understand why they 
are frustrated. Here you have a herd of bison trampling the 
current environment. They have become an invasive, damaging 
species, but the environmental impact study takes so long. Yet 
I think you mentioned that you can see it probably needs some 
work. It just seems like it is taking so long. Why does it take 
so long to determine that an environmental invasive species is 
harmful to the environment? Do you follow what I am saying? 
That is kind of what gives government a bad name. The obvious 
solution or an obvious conclusion takes a long time to be 
arrived at.
    Mr. Knox. Well the environmental impact statement will look 
at alternative solutions, you know, to the problem. And we want 
to get the right science to bear on that decision with the 
right solution.
    Senator Cassidy. So there may be a solution aside from 
culling. It would just be to herd them out or would there be 
some other solution besides culling?
    Again, I do not know the issue so I am asking. Is there 
another solution envisioned besides decreasing the size of the 
herd by culling?
    Mr. Knox. I'm not aware of what the other alternatives are 
so I can't tell you that specifically. And those, obviously, 
are still being developed.
    Senator Cassidy. Okay.
    Senator Heinrich, second round?
    Senator Heinrich. You bet.
    First off, let me say, Senator Klobuchar has submitted a 
statement in support of S. 403, her North Country National 
Scenic Trail bill, which I ask unanimous consent to be included 
in the record.
    Senator Cardin has also submitted several letters in 
support of S. 521, the study of the President Street Station, 
and S. 610, the study of Thurgood Marshall Elementary School. I 
would ask that these be included in the record by unanimous 
consent.
    Senator Cassidy. Without objection.
    [The information referred to follows:]
    
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    
    
    
    Senator Heinrich. Let's followup a little bit on the Grand 
Canyon bill.
    The Park Service, as you know, has allowed the use of 
skilled volunteers to reduce ungulate populations, mostly elk 
and deer, and by deer I mean white-tailed deer, at a number of 
National Park System areas including at least a few National 
Parks. Are there changes to the bill's requirement that the 
Park Service use skilled volunteers at Grand Canyon that you 
would suggest to make that use more consistent with what you 
have done in other places or are you just simply asking for 
more time?
    Mr. Knox. Our concern is that the bill is picking the 
alternative solution, you know, the right solution to this 
problem, and we're in the middle of studying and trying to get 
the right science and public input to come up with what is the 
right solution to the problem. The bill goes to the solution 
before that study is completed.
    Senator Heinrich. So you do not expect any additional 
rounds of public input into the NEPA process. You think that, 
at this point, it is just a matter of coming up with a proposed 
action and finishing out that process and then having something 
in early 2016, January, February, March?
    Mr. Knox. No, it's my understanding the draft plan would be 
issued for public review in early 2016. So there would be an 
opportunity for the public to weigh in at that point. The 
public review today----
    Senator Heinrich. So you have done scoping but you have 
not----
    Mr. Knox. Correct.
    Senator Heinrich. Okay.
    Well you can imagine that we kind of have a chicken and an 
egg problem here to some degree. I mean, I think one of the 
issues is frankly we do not fund the Park Service to do all the 
things that we ask the Park Service to do. I would suggest that 
the solution to that is probably not to say National Parks are 
a bad thing and we should quit making them but to begin to take 
our own responsibilities more seriously than we have before and 
find a solution to the kind of budget caps that were imposed by 
the Budget Control Act.
    I want to ask you one last question with regard to--that 
was a commentary, that was not actually a question. So you are 
off the hook on that one.
    With respect to the headquarters for the Manhattan Project 
National Historical Park, would potential co-location of 
resources with other National Park Service units, for example, 
Bandelier National Monument, be taken into consideration if 
those could produce any sort of administrative savings or other 
benefits to the overall cost of administering the new park 
headquarters?
    Mr. Knox. Yes. That's one of the factors we're considering 
in terms of what's the right organizational structure for the 
park.
    Senator Heinrich. Did the original Manhattan Project study 
call out any specific locations as ideal or suitable for the 
park headquarters?
    Mr. Knox. The ``fonzie'' on the Special Resource Study that 
was issued in 2010 recommended Los Alamos.
    Senator Heinrich. Thank you.
    That will do it for me, thank you.
    Senator Cassidy. Senator King, would you like to make any 
additional comments?
    Senator King. Yes, the first thing I want to do is fess up. 
I found a great app. [Laughter.]
    Senator King. Passports to your National Parks, and it is 
done by Eastern National, a non-for-profit partner of the 
National Park Service. So I was bully ragging you improperly. 
You cannot buy your passes on the app which I think you should 
be able to, but it is very informative and a good app. So 
congratulations. [Laughter.]
    Are you familiar with the Roosevelt Campobello 
International Park?
    Mr. Knox. Not very, you know, I know about it, but I have 
not actually been there myself.
    Senator King. Well, here is the issue. It is unique in that 
it is really not part of the National Park Service per se. It 
is an international park. I think it is the only one in the 
world established by treaty with Canada some 50 years ago. The 
problem is that the National Park Service keeps treating it as 
if it is one of their parks. They intercept the budget, and 
then it comes to Congress. I am going to see what I can do to 
make this budget come directly from the park to Congress and 
not go through the Department of the Interior. I know Senator 
Harkin worked on this for many years, and he is on the Board of 
this park. It is a little embarrassing because the Canadians 
fund their side of this. It is a 50/50 split, and they fund it 
automatically, and we quibble and change and sequester it and 
everything else.
    I feel it is a treaty obligation and should not be treated 
as just another National Park that happens to be very far to 
our East. So I just want to alert you to the fact that this is 
a concern and that I believe that this park should have the 
status that it in fact has an established by international 
treaty, not by act of Congress. So we will be discussing that, 
and I will be discussing that at a later date with the 
Secretary.
    Thank you.
    Thank you, Mr. Chair.
    Senator Cassidy. If there are no more questions for today, 
members may also submit written questions for the record. The 
record will be open for two weeks. Thank you, Mr. Knox, for 
your time and testimony.
    The hearing is adjourned.
    [Whereupon, at 3:37 p.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------    
                              
                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                   [all]
</pre></body></html>
